                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
  Unified School District 453
     Leavenworth, Kansas




                       Report No. 27010-16-KC
                                February 2004
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL - AUDIT
                                          Great Plains Region
                                     8930 Ward Parkway, Suite 3016
                                    Kansas City, Missouri 64114-3302
                                  TEL: 816.926.7667 FAX: 816.926.7676




DATE:         February 18, 2004

REPLY TO
ATTN OF:      27010-16-KC

SUBJECT:      National School Lunch Program – Unified School District 453,
              Leavenworth, Kansas

TO:           Darlene Barnes
              Regional Administrator
              Food and Nutrition Service
              1244 Speer Boulevard, Suite 903
              Denver, CO 80204


This report presents the results of the subject audit.         Your written response, dated
February 4, 2004, to the official draft report has been incorporated into the Findings and
Recommendations section of the report, where appropriate. The text of the response is attached
as exhibit D. Your reply expressed agreement with the recommendations; however, we were
unable to reach management decisions on any of the recommendations. The Findings and
Recommendations section of the report explains those actions necessary for us to consider
management decisions on Recommendations Nos. 1, 2, 3, 4, 5, 6, and 7. In general, we will need
to be advised of the specific actions completed or planned along with acceptable dates for
completing the proposed actions. In addition, the claim amounts determined to be improper must
be recovered or an accounts receivable established.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final action.
Please note that the regulation requires management decisions to be reached on all findings and
recommendations within 6 months from the date of report issuance, and final action should be
completed within 1 year of management decision.

We appreciate the assistance provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
 for Audit
Executive Summary
Food and Nutrition Service, National School Lunch Program, Leavenworth, Kansas
(Audit Report No. 27010-16-KC)

Results in Brief               This report presents the results of our audit of the National School Lunch
                               Program,1 as administered by Unified School District 453, the local school
                               food authority (SFA). The Kansas State Department of Education served as
                               the State agency, and the United States Department of Agriculture Food and
                               Nutrition Service (FNS) served as the funding agency. For school year
                               2001/2002 operations, the SFA claimed about $780,0002 in FNS
                               reimbursement and about $28,000 in State agency reimbursement.

                               Our objectives were to evaluate the SFA’s meal accountability, procurement,
                               accounting systems, and management controls that were designed to provide
                               reasonable assurance as to the accuracy of its meal claims and reimbursement
                               for school years 2001/2002 and 2002/2003 through December 31, 2002.

                               We found the SFA did not effectively implement management and internal
                               controls. For example, SFA personnel did not verify, research, or fully
                               explain questionable counts identified by edit checks and did not have
                               effective second-party reviews, which resulted in overclaims of $684 and
                               underclaims of $408 (see exhibit A). Also, the SFA’s onsite reviews were
                               not sufficient to identify noncompliance with program requirements by
                               individual schools in the district. In addition, the SFA lacked an effective
                               reconciliation of money collected from students for reimbursable meals to the
                               number of meals claimed by the State agency for reimbursement, which
                               contributed to the SFA not knowing they had misstated revenue from
                               students by about $36,800. The SFA also submitted inaccurate annual
                               financial information to the State agency and did not follow requirements
                               regarding public advertising of invitation for bids and obtaining debarment
                               certification.

Recommendations
In Brief                       We recommended that FNS instruct the State agency to direct the SFA to
                               strengthen internal controls over operations of the food service program by
                               (1) strengthening followup on edit checks and second-party reviews of
                               monthly meal claims, (2) reviewing supporting documents for months not
                               reviewed during the audit to ensure only eligible meals were claimed for
                               reimbursement and correcting the erroneous claims, (3) providing additional
                               oversight of the SFA’s own reviews designed to detect and prevent
                               noncompliance with program requirements, and (4) following any existing
                               procedures or developing and implementing procedures and internal controls


1
    Also includes the School Breakfast Program.
2
    Total does not include School Food Service Summer Program funds of about $22,000.

USDA/OIG-A/27010-16-KC                                                                               Page i
                   to adequately identify the source and application of all funds and ensure
                   accurate reports to the State agency.

FNS Response       Although agency response showed FNS officials concurred with the
                   recommendations, it did not provide sufficient information to reach
                   management decisions on any of the recommendations. We incorporated
                   their comments in the applicable sections of the report and attached a copy of
                   the comments as exhibit D.

OIG Position       The Findings and Recommendations section of the report explains those
                   actions necessary for us to consider management decisions on
                   Recommendations Nos. 1, 2, 3, 4, 5, 6, and 7. In order to reach management
                   decisions, we will need to be advised of the specific actions completed or
                   planned along with acceptable dates for completing the contemplated actions
                   and evidence of actions taken to recover the improper claims.




USDA/OIG-A/27010-16-KC                                                                    Page ii
Abbreviations Used in This Report


Act               Richard B. Russell National School Lunch Act
CFR               Code of Federal Regulations
FNS               Food and Nutrition Service
NSLP              National School Lunch Program
OIG               Office of Inspector General
SBP               School Breakfast Program
SFA               School Food Authority
USDA              United States Department of Agriculture




USDA/OIG-A/27010-16-KC                                           Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Accuracy of Collections and Accounting for Reimbursed Meals................................ 3

        Finding 1             Meal Edit Checks and Second-Party Reviews Were Not Effective........................ 4
                                  Recommendation No. 1.................................................................................... 5
                                  Recommendation No. 2.................................................................................... 5
                                  Recommendation No. 3.................................................................................... 6
        Finding 2             Onsite Reviews Did Not Meet Requirements and Disclose Deficiencies............... 6
                                  Recommendation No. 4.................................................................................... 7

    Section 2. Accounting for the SFA’s School Food Service Account ............................................. 8

        Finding 3             Meal Revenue Misclassified ................................................................................... 8
                                 Recommendation No. 5.................................................................................... 8
        Finding 4             Monthly and Annual Reports Inaccurate and Not Effectively Used....................... 9
                                 Recommendation No. 6.................................................................................. 10

    Section 3. Use of Program Funds Related to Procurement......................................................... 11

        Finding 5             Procurement Regulations Were Not Followed...................................................... 11
                                  Recommendation No. 7.................................................................................. 11

Scope and Methodology........................................................................................................................ 12

Exhibit A – Summary of Monetary Results ....................................................................................... 13
Exhibit B – Meals Claimed in Excess of Students Eligible................................................................ 14
Exhibit C – Errors Due to Ineffective Second-Party Reviews .......................................................... 15
Exhibit D – FNS Reply to Official Draft............................................................................................. 16




USDA/OIG-A/27010-16-KC                                                                                                                   Page iv
Background and Objectives
Background               On June 4, 1946, Congress passed the National School Lunch Act,3 now the
                         Richard B. Russell National School Lunch Act (Act), which authorizes
                         Federal assistance to school lunch programs. The intent of the Act, as
                         amended December 29, 2001, is to safeguard the health and well-being of the
                         Nation’s children by providing them with nutritious foods and to encourage
                         the domestic consumption of nutritious agricultural commodities and other
                         foods. This is accomplished by assisting States, through grants-in-aid and
                         other means, in providing an adequate supply of food and facilities for the
                         establishment, maintenance, operation, and expansion of nonprofit school
                         lunch programs.

                         The Act, as amended, authorizes the payment of general and special
                         assistance funds to States based upon the number and category of lunches
                         served. Section 4 of the Act authorizes general cash assistance payment for
                         all lunches served to children in accordance with the provisions of the
                         National School Lunch Program (NSLP) and additional special cash
                         assistance for lunches served to children determined eligible for free or
                         reduced-price lunches. The States are reimbursed at various rates per lunch,
                         depending on whether the child was served a free, reduced-price, or full-price
                         (paid) lunch. Eligibility of children for free or reduced-price lunches is based
                         upon their family’s household size and income, as listed in the Food and
                         Nutrition Service (FNS) Income Eligibility Guidelines, which are reviewed
                         annually.

                         FNS is the United States Department of Agriculture (USDA) agency
                         responsible for administering the NSLP and School Breakfast
                         Program (SBP). The FNS Mountain Plains Regional Office, located in
                         Denver, Colorado, is responsible for monitoring and overseeing operations in
                         Kansas. The Kansas State Department of Education served as the State
                         agency and is responsible for overseeing program operations within Kansas.
                         The School Food Authority (SFA) located in Leavenworth, Kansas, is
                         responsible for operating the NSLP in accordance with regulations. Each
                         State agency is required to enter into a written agreement with FNS to
                         administer the NSLP/SBP, and each State agency enters into agreements with
                         SFAs to oversee day-to-day operations. The SFA in Leavenworth, Kansas,
                         administered the NSLP/SBP in 10 public schools and 3 alternative sites.

                         The fiscal year 2002 funding for the NSLP was $6 billion for meal
                         reimbursements of approximately 4.7 billion lunches. The Kansas State
                         agency received approximately $58 million for the NSLP and $14 million for
                         the SBP in Federal reimbursements for fiscal year 2002. For school year

3
    42 U.S. Code 1751.

USDA/OIG-A/27010-16-KC                                                                          Page 1
                   2001/2002, Kansas provided State funds of approximately $2.5 million to
                   SFAs. The general NSLP requirements are codified in Title 7, Code of
                   Federal Regulations (CFR) 210. Requirements for determining eligibility for
                   free and reduced-price meals and free milk are codified in 7 CFR 245. In
                   accordance with 7 CFR 250, USDA also provides donated foods to SFAs to
                   assist in operating the nonprofit lunch program. The Kansas State agency
                   generally provides cash in lieu of actual commodities. Generally, schools
                   must collect applications on an annual basis from households of enrolled
                   children and make annual determinations of their eligibility for free or
                   reduced-price meals. These schools must also count the number of free,
                   reduced-price, and paid meals served at the point of service on a daily basis.

Objectives         The objectives of our review were to evaluate controls over the
                   administration of the NSLP and SBP. We evaluated policies and procedures
                   over meal accountability and agency oversight of program operation. To
                   accomplish this, we evaluated (1) the accuracy of collections and accounting
                   for reimbursed meals, (2) the accounting and use of program funds relating to
                   the SFA’s procurement of goods and services, and (3) the accounting for the
                   SFA’s school food service account.




USDA/OIG-A/27010-16-KC                                                                  Page 2
Findings and Recommendations
Section 1. Accuracy of Collections and Accounting for Reimbursed Meals

                               The SFA’s internal controls were not adequate to ensure that the
                               reimbursement claims were accurate and required onsite reviews were
                               performed. We determined that the SFA overclaimed $684 and underclaimed
                               $408 for reimbursable meals from August 2002 through December 2002
                               because of meal classification errors related to inadequate second-party
                               reviews and lack of followup on the results of edit checks.

                               Federal regulations require that internal controls must maintain effective
                               control and accountability for all grants and subgrants, cash, real and personal
                               property, and other assets. The grantee and subgrantees must adequately
                               safeguard all such property and assure that it is used solely for the authorized
                               purposes.4 5 The SFA is required to perform onsite reviews annually.6 Federal
                               regulations7 also state that grantees and subgrantees must maintain records
                               which adequately identify the source and application of funds provided for
                               financially assisted activities. These records must contain information
                               pertaining to grant or subgrant awards and authorizations, obligations,
                               unobligated balances, assets, liabilities, outlays or expenditures, and income.

                               State agency guidelines8 state the SFA should answer the following questions
                               to ensure the district has proper controls and knows the strengths and
                               weaknesses of the food service program.

                               •   Are receipts and expenditure reports, as well as profit and loss statements,
                                   prepared monthly?

                               •   Are monthly expenses and revenues compared with prior month’s and
                                   year’s totals?

                               •   Are frequent audits conducted to ensure the accuracy of reported
                                   information (revenue totals reflect cash sales and accurate claims for
                                   reimbursement and expenses reflect only allowable costs)?




4
  7 CFR 3016.20(b)(3).
5
  FNS officials noted that the Federal requirements for the SFA to assure the accuracy of the reimbursement claim,
including the specific edits and procedures to be followed to help assure this accuracy, are the sole "controls" or checks that
are specifically set forth for SFAs to follow.
6
  7 CFR 210.8(a)(1).
7
  7 CFR 3016.20(b)(2).
8
  Kansas State Department of Education Food Service Facts Handbook – Fall 1999.

USDA/OIG-A/27010-16-KC                                                                                              Page 3
Finding 1                Meal Edit Checks and Second-Party Reviews Were Not Effective

                         We found 72 instances during the period of August 2002 through
                         December 2002 where neither the personnel at the school nor central office
                         personnel provided adequate explanations or justifications when meals claimed
                         exceeded the number of students eligible by category. (Claiming more meals
                         than students eligible is not acceptable, and we found any explanations noted
                         were generic.) We also noted 52 instances, without explanations, when the
                         meals claimed exceeded the number of students eligible by category multiplied
                         by the attendance factor. (Claiming more meals than students eligible
                         multiplied by the attendance factor is acceptable, but requires an explanation.)
                         These situations occurred because edit checks and second-party reviews of
                         supporting documents were not sufficient to identify errors in recording meal
                         counts. Also, SFA personnel did not sufficiently research and resolve potential
                         errors of student meals claimed for reimbursement. As a result, we concluded
                         the SFA lacked support of claims that were overclaimed $684 and
                         underclaimed $408 in reimbursements for August 2002 through December
                         2002 (see exhibits A, B, and C).

                         Federal regulations9 require that edit checks shall compare each school’s daily
                         counts of free, reduced-price, and paid lunches against the product of the
                         number of children in the school currently eligible for free, reduced-price, and
                         paid lunches times an attendance factor.

                         The edit check form used by the SFA required an explanation for meal counts
                         that exceed the maximum number of students eligible times the attendance
                         factor.

                         The responsibility to complete the daily edit checks and determine the
                         number of students eligible was given to the individual school’s meal account
                         operators. The responsibility to monitor the school’s daily record of meals
                         claimed was given to the SFA central office personnel. However, the central
                         office simply reviewed that the edit check box was checked and verified
                         column total calculations, but did not determine if edit checks were
                         performed correctly. Accordingly, these employees did not always recognize
                         instances of potentially excessive meal claims that needed correction or
                         justification.

                         The food service director stated that the errors might have occurred because
                         new staff at the schools did not know the correct procedure for completing
                         edit checks. The food service director also noted the SFA used the number of
                         students enrolled and the number of students eligible as of the last day of the
                         month, not the highest number during the month, in completing the edit

9
    7 CFR 210.8(a)(3).

USDA/OIG-A/27010-16-KC                                                                          Page 4
                             checks. When edit checks show the number of meals claimed exceeded the
                             number of students eligible, the SFA should have documented justifications
                             for claiming additional meals, as required. From our review, we determined
                             that the SFA did not have documented justification for claims of $473 for the
                             72 instances where the meals claimed were larger than the number of students
                             eligible. We also determined the SFA overclaimed $212 and underclaimed
                             $408 because of calculation errors and meals claimed in the wrong categories
                             (free/reduced/paid and lunch/breakfast). We concluded the edit check and
                             second-party review processes were not functioning as intended and did not
                             detect excessive claims on meal counts and that similar errors could exist in
                             the months not reviewed during the audit.

Recommendation No. 1

                             Instruct the State agency to provide training and technical assistance and
                             require the SFA to (1) verify that daily meal counts are accurate, (2) ensure edit
                             checks are working, questionable meal counts are justified, and claims for
                             reimbursement are not excessive, (3) develop an effective second-party review
                             process to ensure accuracy, and (4) review supporting documents since
                             December 2002 to ensure only eligible meals were claimed for reimbursement.
                             Require the State agency to verify that the SFA has implemented the required
                             corrective actions.

                             FNS Response.

                             FNS concurred with Recommendation No. 1.

                             OIG Position.

                             In order to consider management decision, we need to be notified of the
                             proposed dates when the State agency and SFA intend to complete the
                             contemplated actions.

Recommendation No. 2

                             Instruct the State agency to provide direction to the SFA on requirements and
                             actions to be taken to correct the overclaims and to provide satisfactory
                             evidence the disallowed costs were recovered.10

                             FNS Response.

                             FNS concurred with Recommendation No. 2.



10
   FNS’ understanding from the exit conference is that if the State agency or the SFA can justify reimbursement in those
instances where claimed meals exceeded the edit figure, those meals would not be subject to overclaim.

USDA/OIG-A/27010-16-KC                                                                                        Page 5
                          OIG Position.

                          In order to consider management decision, we need to be notified of the
                          proposed dates when the recommended actions to be taken by the SFA will
                          be completed and provided evidence the improper costs have been recovered
                          or established as an accounts receivable.

Recommendation No. 3

                          Instruct the State agency to provide direction to the SFA on requirements and
                          actions to be taken to correct the underclaims.

                          FNS Response.

                          FNS concurred with Recommendation No. 3.

                          OIG Position.

                          In order to consider management decision, we need to be notified of the
                          proposed dates when the recommended actions to be taken by the SFA will
                          be completed and provided evidence the underclaim has been corrected.

Finding 2                 Onsite Reviews Did Not Meet Requirements and Disclose
                          Deficiencies

                          School food service onsite accountability reviews were not always
                          completed, as required. We found 1 of 13 schools had not been reviewed by
                          the February 1 deadline, and 10 of the completed reviews were not thorough
                          and accurate. SFA officials stated they did not understand the criteria for the
                          reviews. The failure to perform adequate onsite reviews contributed to the
                          SFA’s unsupported claims for reimbursement reported in Finding 1.

                          Federal regulations11 require the SFA to perform an onsite monitoring review of
                          meal counting and claiming systems used at each school under its jurisdiction
                          annually, by February 1. The regulation also requires the SFA to ensure that the
                          school’s counting system, as implemented, yields the actual number of
                          reimbursable free, reduced-price, and paid lunches, respectively, served for each
                          day of operation. The State agency onsite accountability review included a
                          requirement to verify calculations of daily totals for 1 month and review school
                          level edit checks.

                          For 10 of the 12 schools reviewed, the SFA reviewer listed students eligible
                          multiplied by the attendance factor, not the sum of daily totals by category (free,
                          reduced-price, and paid). The SFA reviewer also did not detect that edit checks

11
     7 CFR 210.8(a)(1).

USDA/OIG-A/27010-16-KC                                                                              Page 6
                   were not properly performed. For example, during the month the SFA official
                   reviewed, we identified 23 days where the number of claimed meals exceeded
                   the number of students eligible with either no justification or an inadequate
                   justification. For example, the reviewer did not question that the SFA claimed
                   31 reduced-price meals while showing only 29 students eligible with the
                   explanation of “good menu.”

Recommendation No. 4

                   Instruct the State agency to require the SFA to ensure that onsite accountability
                   reviews are completed timely, as required, and that additional oversight or
                   monitoring visits are provided to ensure the SFA applies required review
                   procedures and properly detects noncompliance with program requirements.

                   FNS Response.

                   FNS concurred with Recommendation No. 4.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the State agency and SFA intend to complete the
                   contemplated actions.




USDA/OIG-A/27010-16-KC                                                                     Page 7
Section 2. Accounting for the SFA’s School Food Service Account

Finding 3                     Meal Revenue Misclassified

                              The SFA had not reconciled the number of meals claimed for reimbursement
                              to the income collected from students for reimbursable meals because the
                              SFA did not maintain records that correctly identified the source of funds.
                              SFA officials could not readily identify or provide documentation to explain
                              the approximately $36,800 excessive amount shown in the student revenue
                              account, but noted the difference could be, in part, due to balances left in
                              students’ accounts. As a result, there were reduced controls to protect service
                              funds from misuse and the SFA’s annual report to the State agency
                              misclassified revenue from student meals by about $36,800.

                              Federal regulations12 state that grantees and subgrantees must maintain
                              accounting records which adequately identify the source and application of
                              funds provided for financially assisted activities. These records must contain
                              information pertaining to grant or subgrant awards and authorizations,
                              obligations, unobligated balances, assets, liabilities, outlays or expenditures,
                              and income. To have effective control and accountability, internal controls
                              must be maintained for all grant and subgrant cash, real and personal
                              property, and other assets. Grantees and subgrantees must adequately
                              safeguard all such property and must assure that it is used solely for
                              authorized purposes.

                              Our analysis of the SFA’s student revenue account showed $36,831 more
                              income than expected when compared to the number of meals claimed for
                              reimbursement multiplied by the appropriate cost to the students. SFA
                              personnel stated that once money is collected for reduced-price and paid
                              meals, it is placed in the student meals account and not tracked or reconciled
                              after that. SFA personnel stated that the excess monies shown in the account
                              could be attributed to a combination of the balances left in students’ accounts
                              (particularly seniors) when they leave the school district or when students
                              change schools in the district without the balances being carried over for
                              various reasons. Personnel noted that there are very few requests to refund
                              leftover funds in students’ accounts. However, we believe that this is only a
                              partial explanation based on the large difference and that other monies were
                              misclassified as student revenue with no net effect on total revenues.

Recommendation No. 5

                              Instruct the State agency to require the SFA to develop or follow any existing
                              procedures to adequately identify the source and application of all funds
                              received and reconcile these amounts to the number of meals claimed and to

12
     7 CFR 3016.20(b)(2-3).

USDA/OIG-A/27010-16-KC                                                                               Page 8
                               periodically monitor the reconciliation of the number of paid and
                               reduced-price meals claimed to the revenues recorded to ensure sources of
                               funds are always properly identified and recorded. In addition, the State
                               agency should verify the implementation of such procedures.

                               FNS Response.

                               FNS concurred with Recommendation No. 5.

                               OIG Position.

                               In order to consider management decision, we need to be notified of the
                               proposed dates when the State agency and SFA intend to complete the
                               contemplated actions.

Finding 4                      Monthly and Annual Reports Inaccurate and Not Effectively Used

                               The SFA personnel were not completing the monthly financial status
                               summary reports, as required, and made errors on the annual reports
                               submitted to the State agency. The SFA personnel were not concerned with
                               completing the monthly financial status summary reports because the State
                               agency did not require the reports to be submitted to it. As a result, the SFA
                               did not have accurate reports of the monthly revenues, expenditures, and
                               unencumbered cash balances for the food service fund for management of the
                               program. In addition, the annual reports to the State agency did not properly
                               account for the revenues, expenditures, and cash balances.

                               State agency guidelines13 provide that public school districts must complete a
                               Monthly Financial Status Summary form for each calendar month of the
                               fiscal year, July through June, and keep the Monthly Financial Status
                               Summary forms on file with other School Nutrition Program documents.
                               SFAs are not to send the monthly summaries to the State agency, but are to
                               complete the Annual Financial Status Summary and submit a copy to the
                               State agency by August 15.

                               The SFA personnel were not concerned with completing the Monthly
                               Financial Status Summary reports because the State agency did not require
                               the reports to be submitted. The SFA did complete an Annual Financial
                               Status Summary for school year 2001/2002; however, it contained the
                               following errors:

                               •   The SFA had overstated expenditures by $55,008 resulting in
                                   understating the unencumbered closing cash balance.


13
     Accountability and Record-Keeping for the School Nutrition Programs Handbook – July 2002.

USDA/OIG-A/27010-16-KC                                                                              Page 9
                   •     The SFA included $22,273 of Summer Food Service Program funds on line
                         3203, State Sources of Revenue, which, according to the State agency,
                         should have been reported on line 4550, Federal Sources of Revenue, of the
                         Annual Financial Status Summary.

                   During our review, SFA personnel completed the Monthly Financial Status
                   Summary reports for school year 2001/2002. The SFA also corrected the
                   Annual Financial Status Summary for the overstated expenditures and
                   resubmitted it to the State agency.

Recommendation No. 6

                   Instruct the State agency to require the SFA to properly and timely complete
                   the Monthly Financial Status Summary reports for each calendar month of
                   the fiscal year. Also, instruct the SFA officials to periodically analyze the
                   completed reports for accuracy, including reconciling the Annual Financial
                   Summary of Federal and State sources of revenue with the monthly reports,
                   State agency payment records, and the general ledger. Instruct the State
                   agency to verify that corrective actions were taken.

                   FNS Response.

                   FNS concurred with Recommendation No. 6.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the State agency and SFA intend to complete the
                   contemplated actions.




USDA/OIG-A/27010-16-KC                                                                   Page 10
Section 3. Use of Program Funds Related to Procurement

Finding 5                  Procurement Regulations Were Not Followed

                           The SFA did not formally advertise the invitation for bid and did not obtain
                           the required Debarment Certification form from the companies that submitted
                           bids to the SFA because SFA personnel were unaware of these requirements.
                           As a result, the SFA’s procurements did not assure maximum open and free
                           competition and could have resulted in the SFA entering into a contract with
                           a company that had been debarred from Federal contracts.

                           Federal regulations14 require all procurement transactions be conducted in a
                           manner that provides maximum open and free competition. Federal
                           regulations15 also require that procurement by sealed bids be formally
                           advertised. Awards of a firm-fixed-price contract (lump-sum or unit-price)
                           are made to the responsible bidder whose bid conforms to all material terms
                           and conditions. Also,16 the grantee must not make any awards of bids to any
                           party that has been debarred or suspended from Federal assistance programs.

                           The SFA personnel were not aware that an invitation for bid that exceeds the
                           Federal small purchase threshold had to be formally advertised and that the
                           bidders needed to certify that neither they nor their principals had been
                           debarred, suspended, declared ineligible, or voluntarily excluded from
                           participating in transactions with any Federal department or agency. (We
                           noted that none of the successful bidders were on the Excluded Parties
                           (Debarment) Listing System.)

Recommendation No. 7

                           Instruct the State agency to monitor the SFA to ensure it advertises publicly
                           and obtains Debarment Certification forms for all companies that submit bids
                           that exceed the Federal simplified acquisition threshold.

                           FNS Response.

                           FNS concurred with Recommendation No. 7.

                           OIG Position.

                           In order to consider management decision, we need to be notified of the
                           proposed dates when the State agency and SFA intend to complete the
                           contemplated actions.

14
   7 CFR 3016.36(c).
15
   7 CFR 3016.36(d)(1-2).
16
   7 CFR 3016.35 and 7 CFR 3017.

USDA/OIG-A/27010-16-KC                                                                        Page 11
Scope and Methodology
                   Our review primarily covered NSLP/SBP operations July 1, 2001, to
                   December 31, 2002, concentrating on operations since July 1, 2002.
                   However, records for other periods were reviewed, as deemed necessary. We
                   performed audit work at the FNS Regional office, Kansas State agency, and
                   the SFA in Leavenworth, Kansas. The selection of Unified School District
                   453 was based on the amount of reimbursements received and its location
                   within the State.

                   In school years 2001/2002 and 2002/2003, there were seven elementary
                   schools, two middle schools, one high school, and three alternative schools.
                   We reviewed NSLP/SBP records for all 13 schools and made observations at
                   1 elementary school.    Our audit was performed in accordance with
                   Government Auditing Standards.

                   To accomplish our review objectives, we reviewed FNS, State agency, and
                   SFA regulations, policies, procedures, manuals, and instructions governing
                   NSLP/SBP operations. We also reviewed the State agency’s most recent
                   administrative review of the SFA’s NSLP/SBP operations and the SFA’s
                   corrective actions taken in response to the administrative review findings and
                   recommendations. The following audit procedures were also performed:

                   • Interviewed officials from the SFA and State agency in order to obtain an
                     overview of their method of operation of the NSLP/SBP;

                   •   Evaluated the SFA’s procedures used to gather and consolidate monthly
                       meal claims and whether reports were verified for accuracy;

                   •   Evaluated edit check controls used to assure the reasonableness of claims
                       for reimbursement;

                   •   Reviewed the SFA’s accounting system, which included a review of
                       program funds and interest on those funds;

                   •   Analyzed the SFA’s methods used for procurement of goods and services;
                       and

                   •   Analyzed the monitoring efforts of the SFA through a review of the onsite
                       accountability reviews conducted during school year 2001/2002.




USDA/OIG-A/27010-16-KC                                                                 Page 12
Exhibit A – Summary of Monetary Results
                                                                      Exhibit A – Page 1 of 1


Finding No.                Description            Amount   Category
                SFA Overstated the Accumulated
        1       Meal Counts17                      $684       1/
                SFA Understated the Accumulated
        1       Meal Counts                        $408       2/


1/ Unsupported Costs, Recovery Recommended.
2/ Underclaim.




17
     Rounded.

USDA/OIG-A/27010-16-KC                                                             Page 13
Exhibit B – Meals Claimed in Excess of Students Eligible
                                                                             Exhibit B – Page 1 of 1


                                                 Free    Reduced     Paid
August 2002
Meals Claimed Greater Than Students Eligible                           678
Federal Reimbursement Rate                                         $0.2000
Cash in Lieu Rate                                                  $0.1525
Total Overpayment                                                  $239.00


September 2002
Meals Claimed Greater Than Students Eligible                            28
Federal Reimbursement Rate                                         $0.2000
Cash in Lieu Rate                                                  $0.1525
Total Overpayment                                                    $9.87


October 2002
Meals Claimed Greater Than Students Eligible                  38
Federal Reimbursement Rate                               $1.7400
Cash in Lieu Rate                                        $0.1525
Total Overpayment                                         $71.92


November 2002
Meals Claimed Greater Than Students Eligible        19        43
Federal Reimbursement Rate                     $2.1400   $1.7400
Cash in Lieu Rate                              $0.1525   $0.1525
Total Overpayment                               $43.56    $81.38


December 2002
Meals Claimed Greater Than Students Eligible                  14         1
Federal Reimbursement Rate                               $1.7400   $0.2000
Cash in Lieu Rate                                        $0.1525   $0.1525
Total Overpayment                                         $26.50     $0.35

Total Amount Overclaimed                                           $472.56

Totals rounded in report.




USDA/OIG-A/27010-16-KC                                                                    Page 14
Exhibit C – Errors Due to Ineffective Second-Party Reviews
                                                                                                       Exhibit C – Page 1 of 1
September 2002
                               Breakfast/                                                   Cash in     Overclaim/
     School           Type      Lunch        Per School   Per Audit Difference    Rate     Lieu Rate   (Underclaim)
VA             Paid          Lunch              177      180            3        $0.2000   $0.1525            ($1.06)
Warren MS      Free          Breakfast            6       23           17        $1.1700   $0.0000          ($19.89)
Warren MS      Reduced       Breakfast           23        6           -17       $0.8700   $0.0000           $14.79
Muncie ES      Free          Breakfast           12       29           17        $1.1700   $0.0000          ($19.89)
Muncie ES      Reduced       Breakfast           29       12           -17       $0.8700   $0.0000           $14.79
                                         Total Underclaim                                                   ($40.84)
                                         Total Overclaim                                                     $29.58



November 2002
                               Breakfast/                                                   Cash in     Overclaim/
     School           Type      Lunch        Per School   Per Audit Difference    Rate     Lieu Rate   (Underclaim)
VA             Free          Lunch              150      148            -2       $2.1400   $0.1525             $4.59
                                         Total Underclaim                                                      $0.00
                                         Total Overclaim                                                       $4.59



December 2002
                               Breakfast/                                                   Cash in     Overclaim/
     School           Type      Lunch        Per School   Per Audit Difference    Rate     Lieu Rate   (Underclaim)
Project Stay   Paid          Breakfast            2        0            -2       $0.2200   $0.0000            $0.44
Project Stay   Free          Breakfast          126        0          -126       $1.1700   $0.0000          $147.42
Project Stay   Reduced       Breakfast           34        0           -34       $0.8700   $0.0000           $29.58
Project Stay   Paid          Lunch                0        2            2        $0.2000   $0.1525           ($0.71)
Project Stay   Free          Lunch                0      126           126       $2.1400   $0.1525         ($288.86)
Project Stay   Reduced       Lunch                0       34           34        $1.7400   $0.1525          ($64.35)
VA             Paid          Breakfast           78       84            6        $0.2200   $0.0000           ($1.32)
VA             Free          Breakfast          125      134            9        $1.1700   $0.0000          ($10.53)
VA             Reduced       Breakfast          17        19            2        $0.8700   $0.0000           ($1.74)
                                         Total Underclaim                                                  ($367.50)
                                         Total Overclaim                                                    $177.44



Total Underclaim                ($408.33)

Overclaim Exhibit C              $211.61
Overclaim Exhibit B              $472.56
Total Overclaim                  $684.17

Totals rounded in report.



USDA/OIG-A/27010-16-KC                                                                                                Page 15
Exhibit D – FNS Reply to Official Draft
                                          Exhibit D – Page 1 of 1




USDA/OIG-A/27010-16-KC                               Page 16
